No.

In the Supreme Court of the United States

TERRANCE HEARD,
Petitioner;
v.
GRADY PERRY, Warden
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

PROOF OF SERVICE
I, Terrance Heard, do swear or declare that on this date, the IT1' day of February, 2021, as required
by the U.S. Supreme Court Rule 29 I have served the enclosed Motion for Leave to Proceed In Forma
Pauperis and Petition For Writ Of Certiorari on each party to the above proceeding or that party's
counsel, and on every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Richard D. Douglas
Court Clerk Scott S. Harris
Tennessee Assistant Attorney General
1 First St NE
P.O. Box 20207
US Supreme Court Bldg
Nashville, TN. 37202-0207
Washington, DC. 20543
I declare (or certify, verify, or state) under penalty of perjury that the foregoing is true and
correct. Executed on February 11, 2021.
___ _
Signature: [
A.

1

Terrance Heard, Pro Se
Xlll

